                                          From the Inspector General
        Safety, Efficiency, Mobility. These are key Strategic Goals of the Department of
Transportation (DOT), that identify with major accomplishments of DOTs Office of Inspector
General in the 6-month period ending March 31, 2000.
        The Office of Inspector General (OIG) issued 75 audits on transportation issues during that
period, and also presented testimony before Congress on 13 occasions. Topics of testimony includ-
ed Federal Aviation Administration (FAA) safety, security and modernization; motor-carrier safe-
ty; oversight of transportation infrastructure projects, and Amtraks financial outlook.
        Though a great deal of our work is motivated by the promotion of safety, one recent action
by Congress speaks directly to that effort: the creation of the new Federal Motor Carrier Safety
Administration. With more than 5,000 lives lost per year in the United States in accidents involv-
ing large trucks, OIG advised Congress that safety oversight would be strengthened by creation of
a new DOT agency dedicated to truck and bus safety.
        In the area of efficiency, DOT, the FAA and the Highway Trust Fund have received unqual-
ified, or clean, audit opinions on their FY 1999 financial statements. Government agencies have
been required to perform businesslike accounting in the wake of the 1990 Chief Financial Officers
Act. But many agencies, not having had to carry out such functions previously, lacked records or
systems to help them balance their books. DOT deserves credit for the hard work that led to its
unqualified opinions, but more remains to be done. At the FAA, putting in place a state-of-the-art
cost-accounting system would avoid a repeat of the labor-intensive, costly work that made the lat-
est accounting opinion possible.
        In the interest of mobility and accountability, OIG has continued its reviews of billion-dol-
lar-plus infrastructure Megaprojects, including the Boston Central Artery/Ted Williams Tunnel
project. Major cost overruns on this most expensive infrastructure project in U.S. historywith a
current estimated cost of up to $13.6 billionhave made the Central Artery an object example of
the need for strong federal oversight. OIG has been in the forefront of work to identify true costs
and recommend tighter oversight of the project.
        In addition to OIGs audit workwhich resulted in $759.9 million in total financial recom-
mendationsOIGs investigative staff joined other federal agencies and law-enforcers in laying
groundwork for 140 indictments and 140 convictions, and $28.4 million in fines, restitutions and
recoveries. In the interest of crime detection andif possibleprevention, OIG is expanding its
investigative initiatives against fraud on infrastructure projects, illegal transport of hazardous
materials, and trafficking in unapproved aircraft parts.




                                                        Kenneth M. Mead
                       Summary of Performance
                      Office of Inspector General
                  October 1, 1999-March 31, 2000

                    Reports Issued   75
 Total financial recommendations     $759,939,000
       That funds be better-used    $759,600,000
                Questioned costs    $    339,000

         Referrals for prosecution 162

   Cases accepted for prosecution 126

                       Indictments 140

     Fines, restitutions, recoveries $ 28,412,241

                       Convictions 140

Contract terminations/debarments
 7

 Actions affecting DOT employees
 22
Audits and Investigations              1


Focus:	      DOTs Top 12 Issues       2
             Financial Statements      6
             Hazardous Materials       8

Chart: Work Planned and in Progress   10


Audit and Investigative Results:

October 1999                          12

November 1999                         16

December 1999                         20

January 2000                          26

February 2000                         30

March 2000                            34


Organization/Management               42


Chart: OIG Organization               42


Table: Completed Audits               43


Table: Management Decisions           44

                                           Contents
Table: Reports with Recommendations
         That Questioned Costs                         45

Table: Recommendations That Funds
         Be Put to Better Use                          46

Table: Recommendations for Safety,
         Economy or Efficiency                         47

Table: Status/Unresolved Audit Recommendations         48


Table: Profile of Pending Investigations               49


Table: Judicial Actions                                50


Table: Administrative Actions                          50


Charts: Audit and Investigative Resource Application   51


Chart: OIG Fiscal Year 2000 Budget                     51


Wendell H. Ford Aviation Investment and Reform Act     52


List of Audits                                         53

                                                 Audits and
                                              Investigations
The Office of Inspector General includes a staff of auditors and evaluators who review
the programs and operations of the U.S. Department of Transportation to help its man-
agers, and Congress, improve them. Some audits focus on financial issues; others
review the effectiveness of programs. The Inspector General’s staff also includes inves-
tigators who build criminal cases against lawbreakers—such as trucking firms that force
drivers to work too many hours without rest, haulers who illegally transport hazardous
materials, vendors who traffic in illegal, unapproved aircraft parts and Department staff
who violate public trust.

Many factors go into determining what to audit. Some audits are required by law.
Others are requested by key decisionmakers, such as the Secretary of Transportation,
heads of the operating administrations within DOT or Members of Congress. The OIG
audit agenda is also based on the past experience of an audited entity, the strategic goals
of DOT, and priorities established each year by OIG itself. The Inspector General Act
requires the Department to provide the inspector general with all requested information
and for the IG to report any instance in which access was denied. No information
requested by OIG was withheld by DOT officials during the 6 months covered in this
report; however, we had difficulty obtaining accurate, timely information about the
Boston Central Artery/Ted Williams Tunnel project from State of Massachusetts offi-
cials during the period (see page 30).

Information for OIG investigations also comes from many areas. DOT’s operating
administrations and state government officials will refer tips or information about sus-
picious activity to OIG special agents for investigation. Those agents, often with assis-
tance from other law-enforcement agencies, build the cases.

Another source of investigative direction is the Office of Inspector General hotline, an
“800” number that lets citizens—including federal workers—have direct access to OIG
staff. The number is 1-(800)-424-9071. Hotline users are not obliged to disclose their
identities and “whistle-blowers” within the government are protected from reprisal by
federal law. The hotline staff now can be e-mailed at hotline@oig.dot.gov

                                    1
Focus:

     OIG prepared a summary of the 12 most pressing management issues in the
     Department of Transportation at the request of the Senate Governmental Affairs
     and Budget Committees, the House Majority Leader and the House Government
     Reform and Budget Committees. The issues are:




1
        Aviation Safety FAA implemented Safer Skies, a program to reduce fatal accident rates,
        and issued several directives to address the safety of aging aircraft. FAA still needs to focus
        on quality-control guidance for U.S.-based airlines checking the safety practices of their for-
        eign code-share partners; put its new inspection process into full effect; obtain better safe-
        ty data from air carriers, and speed up the process for issuing new rules. Special focus
should be placed on reducing runway incursions and reducing operational errors by air traffic con-
trollersserious safety hazards. In 1999, there were 322 runway incursions and 999 operational
errors.

        Surface Transportation Safety Congress created a new Federal Motor Carrier Safety


2
        Administration. In response, the Department set a goal of reducing, by half, deaths in crash-
        es involving large trucks within a decade, and added truck inspectors at the U.S.-Mexico
        border. Better data are needed in truck-safety oversight, and regulators willingness to sanc-
        tionincluding stronger use of shutdown orders against unsafe motor carriersmust be
made clear. More foreign trucks need to be inspected and sanctions need to be increased against
those found unsafe; oversight of truckers hours and commercial drivers licensure needs tightening;
programs that prevent crashes involving trains and cars need greater emphasis, and pipeline-safety
programs should be strengthened.




3
        Air Traffic Control Modernization FAA is making progress modernizing the nations
       air-traffic control system and has taken a more incremental approach to some acquisitions.
       However, major problems persist with multi-billion-dollar systems, such as the Standard
       Terminal Automation Replacement System, that require extensive software development.
       FAA must improve contractor accountability and institute cost-control mechanisms such as
earned-value management techniques for software-intensive systems. In addition, FAAs Wide
Area Augmentation Systema satellite-based navigation initiativeis experiencing technical prob-
lems that have significant cost and schedule implications that have yet to be determined.



                                                  2
                                         DOTs Top 12 Issues




FAA Financing and Reauthorization FAAs budget has increased nearly 75 percent


                                                                                                4
between FY 1988 and FY 2000, and at projected spending levels it will rise another 40 per-
cent by FY 2003. Spending priorities for the next 3 years, set by recently passed legislation,
require funding of airport improvements and facilities and equipment before salaries and
operations costs are met. Based on FAAs estimates, it could face an operational shortfall of
$7 billion over the next 3 years. It is critical that FAA contain its operations costs. FAA needs
improved financial data, a reliable cost-accounting system, and a strategic business plan. FAA must
also implement negotiated productivity gains for its air traffic controller workforce.

Surface, Marine, and Airport Infrastructure In FY 2000, there will be multi-billion


                                                                                                5
dollar spending on surface, marine, and airport infrastructure. DOT has taken steps to
improve oversight of large infrastructure projects, but more needs to be done. This was
highlighted when managers of Boston's Central Artery project withheld information from
FHWA about $1.4 billion in cost overruns. Federal grantors must demand complete, accu-
rate data to ensure federal funds are properly used. The Department must strengthen internal con-
trols to ensure project cost estimates are accurate; establish criteria to ensure finance plans are com-
plete; promote best practices identified through experience; and take action to deobligate unneed-
ed funds annually. Anti-fraud measures and compliance reviews should also be stepped up.




                                                                                                6
Transportation Security The U.S. transportation system includes 3.9 million miles of
public roads, 2.2 million miles of oil and natural-gas pipelines, 123,000 miles of major rail-
roads, more than 24,000 miles of commercially navigable waterways, and more than 5,000
public-use airports. The threat of terrorist and other criminal activities has heightened the
need to improve domestic transportation security. FAA has deployed advanced-security
technologies and instructed airports and air carriers to tighten access to secured areas.
Airports and airlines must work with FAA to ensure comprehensive airport and airplane security,
including greater use of baggage-screening equipment and tighter controls on employee-access ID.
DOT needs to assess and address potential threats in surface transportation.


                                                  3
Focus:



7
       Computer Security By presidential directive, the nations critical infrastructureinclud-
        ing computersmust be protected from intentional destructive acts. The directive calls for
        initial protective capability by May 2000 and full capability by May 2003. DOT has begun
        work to increase such capability, including installation of automated tools to monitor
        telecommunications network traffic and detect intrusions into computer systems. User
authorization to access DOT systems has been reviewed, and accounts will be terminated where
they are no longer valid. However, DOT still needs to use risk-assessments to set priorities; ensure
protection of critical computer systems; make sure third-party networks connected to DOT systems
are secured; and enhance access controls in the Departments computer-based accounting system.


        Financial Accounting/Chief Financial Officers Act DOT has prepared consoli-


8
         dated financial statements since 1996, when new federal laws spurred government agencies
         to function in a more businesslike fashion. But DOT had not yet received an unqualified
         (clean) audit opinion on its statements, largely due to weaknesses in some property and
         equipment accounts. Significant progress was made in FY 1999, which resulted in a clean
opinion on FY 1999 financial statements. These statements show DOT had assets of $76 billion, lia-
bilities of $30 billion, and operating costs of $42 billion. DOT still needs to make major improve-
ments in its accounting systems. DOT should acquire a state-of-the-art management and accounting
system and institute integrated property management at FAA. Lacking such improvements, DOT
will need to continue the costly, labor-intensiveand in the long-term, unsustainableeffort that
produced the FY 1999 results, when such data should be collected as a matter of course.




9
        Amtrak Financial Viability and Modernization Amtrak is under a Congressional
         mandate to end its need for federal operating support after FY 2002. Though Amtrak has
         made progress toward this goal, its $907 million in operating losses in 1999 were its largest
         ever. It must find revenue to compensate for income forgone by the delay in its new high-
         speed service between Boston and Washington. OIG identified $692 million in projected rev-
enue, or cost reductions, at risk of not being realized by 2002. More than half that sum is attributa-
ble to benefits from yet-to-be-determined management actions which need to be identified and car-
ried out. A multi-billion-dollar backlog of capital investments must be made to prevent deteriora-
tion of service in the revenue-producing Northeast Corridor; federal funding issues remain.




                                                 4
                                       DOTs Top 12 Issues



                                                                                      10
Coast Guard Deepwater Replacement Project This $9.8 billion-$15 billion,
20-year project aims to replace all vessels, aircraft and related systems used by the
Coast Guard in activities 50 miles or more offshore. The Coast Guard is using an
innovative planning process that should provide a good basis for establishing needs
and developing an acquisition strategy. However, the Coast Guard needs to fill gaps
in the process and respond to concerns about how it can proceed with a request to
start buying assets in advance of completing its comprehensive planning process. It still needs to
ensure data reliability, develop reliable cost-estimates, avoid problems other agencies have encoun-
tered in major-system replacements, and be realistic about competing budget demands from other
DOT agencies, notably FAA.




                                                                                      11
MARADs Ship-Scrapping Program The Maritime Administration currently
has 110 obsolete ships, and 88 of them are deteriorating and need to be scrapped to
prevent release of such hazardous materials as fuel oil, asbestos, polychlorinated
biphenyls, lead, radium and chromates into the waters where they are moored. In the
past, MARAD sold many such ships internationally, but that practice has halted. Sales
of ships for scrapping have declined because the market is limitedthe Navy is paying U.S. scrap-
pers to take defunct warships. MARAD will not be able to meet a requirement that it scrap at a prof-
it in 2001. MARADs legal requirements need to be loosened, and it will need authorization and
funding to pay for the disposal of its vessels.




                                                                                      12
Government Performance and Results Act Implementation GPRA
requires federal agencies to develop strategic plans, annual performance plans, and
starting this yearyearly performance reports. DOTs 1999 performance report indi-
cates the Department met, or saw good trends, in 77 percent of its goals, while it did
not meet 15 goals; the report dealt explicitly with problems in statistical data used to
measure performance. The Department faces challenges getting data and working with third par-
ties, such as states, who carry out work that will be measured as DOT performance.




                                                 5
Focus:

   Objective: Helping the Department of Transportation present

                                                       present
                       businesslike accounts

                                    accounts

    Department of Transportation, Highway Trust Fund,

   Federal Aviation Administration achieve clean audit

         opinions on FY 1999 financial statements


  Early in the year 2000, after 9 years of hard work, the Department of Transportation,
  including the Highway Trust Fund and the Federal Aviation Administration, posted
  significant accomplishments in financial management by achieving unqualified, or
  “clean,” audit opinions on their financial statements. These statements show DOT
  had assets of $76 billion, liabilities of $30 billion, operating costs of $42 billion, and
  total budget authority of $57 billion. However, to avoid repeating the costly and
  extraordinary effort needed to achieve this worthy goal, DOT needs to put state-of-
  the-art accounting systems in place.

  Financial accounting that meets businesslike standards is now a requirement for fed-
  eral agencies, since the 1990 passage of the Chief Financial Officers Act and the
  1994 adoption of the Government Management Reform Act. Under these laws,
  annual financial statements have been produced by DOT since FY 1996. The Office
  of Inspector General audits these statements and delivers an audit opinion on the
  reliability of the information they contain and whether the statements were created
  in conformance with generally accepted accounting principles.

  In earlier years, OIG found deficiencies in the financial statements of the
  Department overall, particularly in the property and inventory accounting of the
  FAA and the U.S. Coast Guard. Starting in FY 1997, we urged FAA and the U.S.
  Coast Guard to establish accurate records of their property and inventory, which they
  estimated to be worth $25 billion. That year we also issued a qualified opinion on
  the Highway Trust Fund, largely due to a problem outside DOT’s control—the
  inability of the Department of the Treasury to verify excise-tax revenues that go into
  that fund. Each year since then the agencies made progress toward a “clean” audit
  opinion. But until this year, that distinction was withheld from the Departmental and
  FAA financial statements.

                                          6
                               Financial Statements





Due to concerted effort and cooperation, DOT, the Highway Trust Fund and the
FAA earned unqualified audit opinions on their FY 1999 financial statements.
We found that the three entities’ balance sheets, statements of net cost, state-
ments of changes in net position, statements of budgetary resources, and state-
ments of financing were fairly presented in all material respects and conformed
with generally accepted accounting principles. Further, sufficient evidence was
offered to support all material line-items. Though we identified weaknesses,
they were not so significant as to prevent the overall “clean” designations.

OIG’s audits of the FAA’s financial statements for FY 1999 and our audit of
FAA’s property, plant and equipment similarly found documentation adequate
and accounting approaches reasonable. However, more work is needed. We
urged FAA, which also is developing a cost-accounting system, to make finan-
cial management-system improvements to avoid the future need for the extraor-
dinary, expensive, and labor-intensive documentation that made this unqualified
opinion possible.


                                      7
  Focus:

          Objective: to ensure public safety when hazardous materials

                                                              materials
                      are transported by land, sea, and air 


    Hazmats highlighted in work of special team,

               three investigations

A substantial portion of the work done by Office of Inspector General
auditors and investigators involves hazardous materials, or hazmats.
In the U.S., there are about 300 million shipments a year of substances
that could pose a threat to public health or safety if improperly handled.
Toxic or potentially explosive or flammable substances are used for legit-
imate purposes every day, but must be moved from their makers to their
users in keeping with federal regulations governing proper packaging,
labeling, handling, and storage. Violation of these regulations can have
tragic consequences.




DOTs Hazmat Program Evaluation

For a year, a team including OIG auditors and staff of the U.S. Coast
Guard, the Federal Aviation Administration, the Federal Motor Carrier
Safety Administration, the Federal Railroad Administration and the
Research and Special Programs Administration analyzed DOT programs
involving hazardous materials transportation and the effectiveness of
those programs, as called for in the Departments Strategic Plan.

The team found:

      that no organization in the Department was responsible for
coordinating and overseeing the hazmat programs of the five operating
administrations with hazmat responsibilities.

                                                  8
                                       Hazardous Materials

       that originators of hazardous-materials shipments need more attention, DOT-wide, because
they offer the greatest opportunity to improve safety.
       that DOT has not changed the trend of human error being the greatest contributing factor in
hazardous-materials incidents.
       that DOT lacks reliable, accurate, and timely data to measure program effectiveness and
make informed program-delivery and resource decisions.

The team recommended establishing a new institutional authority in the Department to act as a focal
point to administer and deliver a DOT-wide hazardous-materials program. The authority should
address intermodal and cross-modal issues to provide more effective use of resources. Further, the
team recommended that hazmat shippers receive closer scrutiny, that training standards be strength-
ened to improve safety practices, and that data-collection and analysis be improved to make the data
more useful. The full report is available on the Internet at http://hazmat.dot.gov/hmpe.htm


Hazmat crime

      The Department of Transportation Office of Inspector General was instrumental in three major
cases involving hazmat violators in the past 6 months:

        The AMR Corp. case, in which the holding company that owns American Airlines admitted
to a 5-year pattern of violating hazardous materials regulations in its handling of freight on passenger
jets. AMR pleaded guilty to illegally storing the potentially explosive chemical Dioxital for 3 years at
Miami International Airport. The holding company was fined $6 million and also ordered to pay $2
million to the Miami-Dade County Fire Department hazmat program.

       The SabreTech case, in which a Florida-based aircraft-maintenance firm was convicted of
recklessly causing transportation of hazardous materials on an air carrier. Sentencing is pending.
Prosecutors alleged the companys actions allowed improperly capped oxygen generators to be
loaded on ValuJet Flight 592. The generators were determined to have started a fire that caused the jet
to crash May 11, 1996, killing all 110 people on board.

       The Royal Caribbean Cruises Ltd. case, in which the cruise line agreed to pay a record $18
million fine. Royal Caribbean agreed to plead guilty to multiple felony counts for dumping oil and
hazardous chemicals into U.S. waters and lying to the U.S. Coast Guard. The affected jurisdictions
were Anchorage, Miami, New York City, Los Angeles, the U.S. Virgin Islands, and Puerto Rico.

                                                  9
   Office of Inspector GeneralWork Planned and in Progress

In the interest of maximizing DOTs value to citizens, the Secretary of Transportation has developed a Strategic Plan setting pri-
orities for the appropriate deployment of Departmental staff and other resources. This chart illustrates major OIG work planned
and in progress in relation to the Secretarys priorities of Safety, Mobility, Economic Growth and Trade, Human and Natural
Environment and National Security.



Strategic goal: Safety                                           zEvaluate effectiveness of FAAs inspection system for
                                                                 makers of aviation fasteners.

zReview the U.S. Coast Guard program overseeing
                                                                 zReview railroad safety inspection data maintained by
safety of passenger ferries.
                                                                 FRA to assess the accuracy of information in its safety-
zReview FAAs $40 million annual investment in air-              inspection reports and database.
craft safety research, engineering and development,
                                                                 zReview FAAs data and efforts with regard to air traf-
including work to address aging-aircraft issues.
                                                                 fic control operational errors and deviations, and follow
zReview adequacy of controls to ensure that only qual-           up on FAA actions to reduce runway incursions.
ified truck drivers retain commercial drivers licenses.
                                                                 zPursue OIG investigations affecting transportation
zReview enforcement activities of the Federal Motor              safety, including suspected unapproved aircraft parts,
Carrier Safety Administration.                                   motor-carrier safety, and illegal hazmat transports.


zAssess the progress of FAAs deployment program for
explosives-detection equipment.


Strategic Goal: Mobility

zDetermine whether consumers face barriers when                  zReview airline flight-delay data to determine the
seeking comparative price and service information                extent, nature and causes of flight delays and cancella-
about air travel and whether airlines fail to disclose           tions.
overbooked status of flights, and review use of nonre-
fundable airline tickets.                                        zDetermine the level of air carriers compliance with
                                                                 the Airline Customer Service Commitment Act.
zReview FAA efforts to modernize the air traffic con-
trol system, including the Wide Area Augmentation                zConduct investigations of fraud, waste and abuse in
System, Standard Terminal Automation Replacement                 connection with major infrastructure projects.
System, Oceanic Automation Program, HOST computer
system and Free Flight.


zAssess Amtraks strategic business and capital plans
and their effect on Amtraks ability to achieve operating
self-sufficiency by 2003.




                                                               10
Strategic Goal: Economic
Growth and Trade
                                                               zConduct fraud-awareness briefings for Federal Highway
                                                               Administration and Federal Transit Administration officials
zInvestigate contract, grant, and procurement fraud.
                                                               and for state and local FHWA and FTA grantees.



Strategic Goal: Human and                                      zDetermine whether FAA is using Airport Improvement
                                                               Funds cost-effectively on noise-mitigation projects.
Natural Environment
zPlace priority on investigations of hazardous materials
violations including participation in Environmental Crime
Task Force operations in multiple geographic locations.



Strategic Goal: National                                       zAssist chief information officers throughout the
                                                               Department enhancing computer security and effective-
Security                                                       ness.

                                                               zReview MARAD internal controls over ship-manager
                                                               contracts for the Ready-Reserve Fleet.
zDetermine whether FRA can effectively inspect up to 600
nuclear shipments per year and whether FRA has inspect-
                                                               zReview DOT and FAA telecommunication infrastructure
ed alternate rail routes, should their use be necessary.
                                                               for security and user adequacy.
zAssess the effectiveness of the Maritime Administrations
internal controls under the Maritime Security Program.         zReview the security of the FTA grants-management com-
                                                               puter system.


Corporate Management Goals


zAssist DOT financial managers in correcting material          zMonitor FAAs progress in developing new personnel-
weaknesses in accounting systems to continue to achieve        management systems addressing hiring, training, compen-
unqualified, or clean, audit opinions on financial state-    sation and location of personnel.
ments.
                                                               zReview FAAs efforts to implement its Acquisition
zDetermine the status of previous recommendations con-         Management System.
cerning DOTs rulemaking process; identify ways to
decrease the length of time DOT takes to issue rules and       zDetermine whether Year-2000 preparation funds provid-
regulations.                                                   ed to DOT were used solely for that purpose



zAssess the potential for reducing health-care costs in the
U.S. Coast Guard through lower-cost initiatives.


                                                          11
FAA should set policy on use of Threat Image Projection tool for screen-
er training
In our followup audit on the deployment of explosives detection equipment (report AV-2000-002),
we found that FAA had not established policies and procedures for implementing Threat Image
Projection (TIP). TIP is a computer-software program used to test airport-screener performance
by electronically projecting fictitious images of bags containing bombs on the screens of bulk-
explosives-detection machines. FAA had not provided sufficient instructions to air carriers and
their screening companies managing the TIP program, or established controls over the use of
restricted TIP program passwords. As a result the program was compromised because machine
operators were using passwords to access the program and then disable or control it. FAA advised
that control of TIP passwords has been attained, and uncompromised versions of TIP images are
now resident on scanners.


                  Amtrak: Self-sufficiency possible, but difficult to achieve

                  The Inspector General testified about Amtrak's financial viability before the Ground
                  Transportation Subcommittee of the House Transportation and Infrastructure
                  Committee. The OIG assessment of Amtrak's 1999 Strategic Business Plan (report
                  CE-2000-010) leads to the conclusion it is possible—but will be difficult—for Amtrak
                  to achieve operating self-sufficiency. It will depend on Amtrak filling the $692 million
                  gap OIG identified in Amtrak’s 1999 Strategic Business Plan. Further, high-speed rail
                  service in the Northeast Corridor must begin as soon as possible so revenue benefits
                  can accrue in 2001 at a full-service level. Then the service can achieve its full revenue
                  potential in 2003, the first year Amtrak is supposed to achieve operating self-suffi-
                  ciency. Amtrak also must provide its long-term strategic capital plan to Congress. Life-
                  safety issues need to be addressed in New York’s Penn Station and adjoining tunnels.



Cruise line pays $9.5 million in fines
for polluting waters of Florida, Alaska

Royal Caribbean Cruises Ltd. was sentenced, following guilty pleas to charges of making false
statements and knowingly discharging pollutants into coastal waters of Alaska and Florida. The
pleas cover two of six jurisdictions in which the cruise line has agreed to ultimately pay $18 mil-
lion in total fines. In U.S. District Court in Anchorage, the corporation was fined $6.5 million,
assessed $2,800 in court fees, and sentenced to 5 years' probation. Royal Caribbean admitted it
bypassed an "oil/water separator" system meant to prevent discharge of oily pollutants, then made
false reports to the U.S. Coast Guard that the system had been in service. A U.S. District Court
judge in Miami also levied a fine of $3 million following Royal Caribbean’s admission to illegal
discharges, false statements about them and illegal storage of hazardous wastes.

                                               12
                                                             October 1999

Defendants sentenced in $140 million fuel-tax scam

Five men charged in a $140 million fuel-tax-evasion conspiracy with 20 other defendants were
sentenced in U.S. District Court in Camden, NJ. They were Ilya Klotsman of Fort Lee, NJ,
Anatoly Kogan of Woodside, NY, Gregory Khutorsky of Rocky Point, NY, Aaron Chervin of
Brooklyn, NY and Arnold Zeidenfeld of Brooklyn, NY. The sentences ranged from 1 year in jail
to $60,000 in restitution payments. The defendants were involved in a scheme in which hundreds
of millions of gallons of home heating oil were purchased tax-free, then resold to a distributor as
diesel fuel, which was bootlegged at a profit. The defendants set up sham fuel companies through
which the oil was listed on paper as bought and sold, to disguise the tax evasion engaged in by
the initial buyer and the final seller. In a separate case with a similar modus operandi, Roman
Sobalevsky was sentenced to 2-1/2 years’ imprisonment for evading $402,000 in taxes.


       Alameda Corridor project on schedule; cost-estimate accurate

       The Alameda Corridor project is a 20-mile rail corridor that will consolidate rail traf-
       fic between the Ports of Los Angeles and Long Beach and the railyards near downtown
       Los Angeles. In our review of cost, funding and schedule status and financing risk
       (report TR-2000-004), we concluded that the $2.4 billion cost estimate for the project
       is accurate. However, while the finance plan for the project identifies sufficient fund-
       ing to meet costs, it does not specify that there are known and accepted funding risks,
       such as potential impact of a consent decree which may require one of the funding par-
       ties to spend as much as $76 million of the $355 million it committed for other pur-
       poses, and the possibility user fees and port contributions in the future will not cover
       debt repayment. We also concluded that the project is on schedule and the estimated
       completion date of December 2002 is reasonable.


Company superintendent sentenced
in heavy-metal pollution scheme

Ira Sidney Campbell of Brighton, IL was sentenced to 9 months’ home confinement and 3 months
of probation for his role in a conspiracy that led to pollution of a Mississippi River tributary.
Campbell was superintendent of maintenance for Chemetco, Inc., which operated a smelter near
Hartford, IL. For about a decade ending in September 1996, the Chemetco facility discharged
pollutants including zinc, lead and cadmium into Long Lake, a tributary of the Mississippi River.




                                                13
                                                             October 1999


   Plea entered in sale of substandard helicopter parts

   P.A. International, Inc., an aircraft-parts distributor in Pompano Beach, FL, plead-
   ed guilty to making false claims. A U.S. District Court judge ordered the firm to
   pay $36,725 in restitution to the U.S. Coast Guard and barred it from doing busi-
   ness with the government for 3 years. The firm, which also was placed on 5
   years’ probation, falsely claimed its transmission parts and fasteners were up to
   quality standards set out in a procurement contract, when they were not. The parts
   and fasteners were delivered to the Coast Guard for use on its HH-65 helicopters.
   That model of helicopter is used on search-and-rescue, law-enforcement and
   environmental missions. P.A. International filled procurement requests issued by
   the Coast Guard's Aircraft Repair and Supply Center in Elizabeth City, NC.



Cylinder-testing firm, owner fined,
permanently barred from the business

Charles Sheffield and City Fire Equipment Co., a firm formerly certified by RSPA to safety-test
compressed gas cylinders, were sentenced in Biloxi, MS. Sheffield and the corporation each
were fined $2,500 and sentenced to 3 years' probation by a U.S. District Court judge. As part
of the plea agreement, Sheffield is barred from reentering the cylinder-testing business, which
is regulated by DOT. Sheffield and the firm had pleaded guilty to violating the Federal
Hazardous Materials Transportation Law. Sheffield and City Fire falsely certified that cylinders
were tested without performing the required tests. City Fire's retesting certification was revoked
by the Research and Special Programs Administration in mid-1999.




                                              14
15
Controls, safeguards needed for Mexico-domiciled motor carriers

Our report (TR-2000-013) concludes that motor carriers domiciled in Mexico are operating improper-
ly in the U.S. and violating U.S. statutes, either by not obtaining operating authority or by operating
beyond the scope of their authority. Our report shows that during Fiscal Year 1998, at least 52 Mexico-
domiciled motor carriers operated improperly in 20 states beyond the border states and at least 202
operated improperly beyond the commercial zones within the four border states. To ensure that
Mexico-domiciled motor carriers comply with U.S. statutes, controls should be established and safe-
guards enhanced. These should include the verification of registration information, the use of auto-
mated data and state safety inspectors to monitor compliance, the implementation of consistent
enforcement policies, increased fines, and additional resources.




     Guilty verdicts in disadvantaged business enterprise fraud trial

     Two Ohio men who orchestrated schemes to defraud the disadvantaged business enterprise
     (DBE) program were convicted by a federal jury in Wheeling, WV of fraud, obstruction of
     justice, and perjury. Kermit Bunn of Marietta, head of Bunn Construction, conspired with
     Charles Striblin of Belpre, who created a "front" firm designated as a DBE to help Bunn
     obtain contract work on five highway projects worth more than $747,000. The work pur-
     portedly done by Striblin's firm was actually performed by Bunn Construction, which also
     handled all aspects of the Striblin firm’s business including hiring and firing and negotia-
     tion of materials contracts. One of Bunn’s obstruction counts resulted from his threat against
     a special agent of the Department of Transportation Office of Inspector General.



Prison term, $55,000 in fines levied for illegal chemical transport, dumping

Oil-refinery executives John R. Cooke and Donald A. Mullins, and their corporation, M&S Petroleum,
Inc., were sentenced for illegally transporting hazardous chemicals and dumping them into the
Mississippi River. Also, Barrett Refining Corp. of Vicksburg, MS, which leased the facility to M&S,
was sentenced for discharging benzene-contaminated wastewater into the river. Cooke was sentenced
to 2 years and 5 months in federal prison, fined $5,000 and placed on 3 years' supervised release.
Mullins was sentenced to 3 years' supervised probation and 150 hours of community service. M&S
was fined $25,000 and placed on 3 years' supervised probation. Barrett Refining was fined $25,000,
ordered to pay for the cleanup of the refinery site, and placed on 5 years' supervised probation.




                                                 16
                                                        November 1999

   Airport access control needs strengthening

   Our audit of controls over access to secure areas of airports (report AV-2000-017) showed FAA
   has been slow to take actions necessary to strengthen access-control requirements and adequate-
   ly oversee the implementation of existing controls. Access controls were tested from December
   1998 through April 1999 at eight major U.S. airports. In 117 of 173 tests—68 percent of the tests
   —we successfully entered secure areas by penetrating emergency exits, following airport per-
   sonnel through access-control points, and penetrating air-cargo facilities. Once we gained access
   to these secure areas, we boarded aircraft operated by 35 different air carriers 117 times. We found
   airport operators and air carriers operating at those airports had not successfully implemented pro-
   cedures for limiting access to, and within, secure airport areas. Employee failure to carry out
   security responsibilities was found to be the primary cause of access-control weaknesses.



Company owners jailed for kickbacks on FAA contract

Bradley W. Bowen of Vincentown, NJ and John J. Rachel of Nokesville, VA,
each were handed a year in jail for violating the Anti-Kickback Act. Their
guilty pleas also brought each a $10,000 fine and 2 years' supervised release.
Bowen was part-owner of Diez Management Systems, Inc.; Rachel was
owner of the firms RGI, Inc. and Computer Software Engineering, Inc. Diez
Management had been awarded a $2.5 million FAA contract for printers used
by air traffic controllers. The contract later was modified to add a specific
accessory for $310,957. Diez Management, through Bowen, falsely claimed
Rachel's firms were supplying the accessory, when it was obtained for
$77,700 from another source; Rachel, Bowen and a third defendant, who
was convicted and jailed last April, shared the $220,000 difference.


            Exporter sentenced for false declarations

            Ronni T. Jensen, export manager for Shipco Transport, Inc. of Hoboken, NJ, was sentenced
            in U.S. District Court in Newark for making false statements. He pleaded guilty to falsifying
            export documents. In January 1999, Jensen agreed to accept a package of aircraft parts from
            a New Jersey parts broker for shipment to a freight forwarder in Dubai. A Customs under-
            cover agent informed Jensen that the final destination of the parts was Iran, a country under
            a U.S. embargo, and asked that the shipper's name be kept off any export documentation.
            Jensen, who was fined $1,000 and placed on 2 years’ probation, arranged the shipment and
            supplied a certification falsely claiming compliance with security requirements.




                                                   17
                                                        November 1999

TASC: Provide speedier, more detailed billing

Our review (report MA-2000-015) showed that the Transportation Administrative Services Center
(TASC) established effective procedures to record costs and bill them to departmental components.
However, TASC bills were not timely and did not contain sufficient information for recipients to deter-
mine if the amounts billed were for services properly authorized and received. An average of 78 days
elapsed from the time TASC received a contractor's invoice until TASC billed the departmental compo-
nent, and bills identified most services only in general terms. In addition, TASC had not established con-
trols to ensure that departmental components do not exceed their spending limits for TASC services as
directed in the Conference Report on the FY 1999 DOT Appropriations and reiterated in the House
Committee Report on FY 2000 DOT Appropriations. We recommended the Deputy Secretary direct
TASC to address these issues.



                                 Trash-hauler sentenced in fraud

                                 Continental Contractors, Inc., and its principal, Paul A. Lanigan, were sen-
                                 tenced following their guilty pleas in a fraud against the government. A
                                 U.S. District Court judge in Philadelphia sentenced Lanigan to 2 years'
                                 home confinement, 2 years of supervised release, 100 hours of community
                                 service, and a fine of $12,000. The company was sentenced to 1-1/2 years'
                                 probation and ordered to pay $54,000 in restitution and a fine of $12,000.
                                 Continental held the garbage-removal contract for the Philadelphia Navy
                                 base. An investigation found that Continental transported the garbage to a
                                 solid-waste transfer station that lacked proper permits—violating laws, reg-
                                 ulations and the contract provisions.



              Motor carrier fined $100,000
              for hazardous-materials violations

              Superior Hauling and Fast Transit and Anthony N. Pallme, its vice president,
              were sentenced for transporting hazardous materials in violation of DOT safe-
              ty regulations and for lying to Federal Railroad Administration inspectors. A
              U.S. District Court judge in St. Louis ordered Superior to pay a $100,000 fine
              and placed it on 3 years' probation. Pallme was sentenced to pay a $600 fine
              and was placed on 2 years' probation. Superior, a regional motor carrier, failed
              to identify hazardous materials in its shipments that were moved interstate by
              railroad.


                                                  18
19
The top-priority Department of Transportation management issues

Our report (CE-2000-026), an annual, Congressionally requested listing of top-priority management
issues, includes a description of progress made by the Department in the past year and open issues and
recommendations. These top issues include aviation safety, surface transportation safety, air traffic con-
trol modernization, FAA financing and reauthorization, surface, marine, and airport infrastructure, trans-
portation security, computer security, financial accounting and the Chief Financial Officers Act, Amtrak
financial viability and modernization, the Coast Guard's Deepwater Capability Replacement Project, the
Maritime Administration’s ship-disposal program, and implementation of the Government Performance
and Results Act. The Deepwater project and the ship-scrapping program are new items since last year; our
1998 highlighting of Year-2000 computer issues was removed because the Department resolved those
issues. For a more in-depth look at this issue, see our focus on page 2.



                               SabreTech found guilty in ValuJet crash

                               A federal jury in Miami found SabreTech, Inc. guilty of nine felony counts
                               relating to the corporation's responsibility for the improper loading of oxygen
                               generators. The National Transportation Safety Board found that a fire set off
                               by the generators caused the May 1996 crash of ValuJet Flight 592, which
                               killed all 110 on board; an oxygen generator is shown at left. The jury found
                               SabreTech guilty of recklessly causing the transportation of a hazardous mate-
                               rial in an air carrier and willfully failing to provide its employees with feder-
                               ally mandated hazardous materials training. The jury acquitted two SabreTech
                               employees charged in the indictment. A third defendant is still a fugitive.


  AMR Corporation pleads guilty to hazardous-materials
  violation, pays largest hazmat-violation fine in U.S. aviation history

  AMR Corp., American Airlines’ holding company, pleaded guilty to storing hazardous waste illegal-
  ly and agreed to pay a fine of $6 million and pay another $2 million as community service. The plea,
  entered in federal court in Miami, marked the first time a major air carrier pleaded guilty and accept-
  ed responsibility in a hazardous-waste case. AMR admitted its employees extinguished a July, 1995
  fire caused by a chemical spill, then illegally stored the remaining 100 pounds of the chemical at
  Miami International Airport for more than 3 years. AMR further admitted the violation of the
  Resource Conservation and Recovery Act was part of a 5-year pattern of conduct. In addition to the
  $6 million fine and $2 million payment to the Miami-Dade County Fire Department’s hazardous-
  materials response unit, AMR must upgrade its security and procedures. The case represents the
  largest dollar recovery related to hazardous materials in the history of U.S. aviation.


                                                   20
                                                             December 1999

   Management of Free Flight needs cost-control incentives

   Our report (AV-2000-028) concerns Free Flight Phase 1—initial steps toward giving pilots flexibility to
   fly more direct paths while maintaining air safety. The first phase is expected to cost about $722 million
   through Fiscal Year 2004. Of the total cost, 83 percent will be spent on two new automated controller
   tools. One, the Center-TRACON Automation System (CTAS) gives controllers suggested sequences for
   landing aircraft and runway assignments that can increase efficiency. The other, User Request Evaluation
   Tool (URET), helps controllers analyze airline requests for changes in en-route flight plans. We found that
   in order to provide early benefits to users, FAA has left little room with both systems for schedule slip-
   page or unexpected problems. FAA is using earned-value management,which compares contract techni-
   cal progress and costs, to monitor CTAS and URET contractors. However, not all contracts have pricing
   arrangements giving strong incentives to contractors to control costs.




MARAD contractors sentenced in kickback/theft scheme

Three employees of Triplex Marine Maintenance were sentenced in U.S. District
Court in Beaumont, TX on charges of providing kickbacks and theft of public
money. The trio had offered kickbacks to Bay Ship Management in exchange for
favorable treatment on ship-repair contracts. All were sentenced to 3 months'
home detention and 3 years' probation. Further, Donna LeMaire, Triplex presi-
dent, was ordered to pay $66,185 in restitution and a $10,000 fine; Keith
Courvelle, Triplex superintendent, was ordered to pay $67,385 in restitution and
a $10,000 fine; and Danny Weldon, an estimator for the firm, was ordered to pay
$66,185 restitution and a $5,000 fine.


            Company, president plead guilty
            in hazardous material air-freight case

            Alpa International, Inc., an air-freight forwarder, and its president, Alejandro Craig,
            pleaded guilty in U.S. District Court in Miami to charges of willfully delivering haz-
            ardous materials to an air carrier in violation of federal hazmat regulations. Craig and
            other Alpa employees had removed hazardous material labels and wrapped opaque
            plastic around pallets of petroleum-based toner the firm was attempting to send to
            Paraguay. Employees of LanChile, the airline slated to carry the shipment, discovered
            the hazardous nature of the shipment when a pallet had to be broken down to fit in the
            hold. The investigation found evidence of Craig's personal involvement in the con-
            cealment.


                                                      21
Plastics company sentenced for illegal waste transport, dumping

Professional Technologies, Inc. of Ham Lake, MN, was fined $25,000 by a U.S. District Court
judge in Minneapolis for illegally transporting and dumping 55-gallon drums filled with haz-
ardous waste. The corporation produces plastic products, generating such hazardous wastes as
paints, thinners and solvents in the process. Court records show that between 1995 and mid-
1998, Professional Technologies collected such waste in 55-gallon drums and illegally trucked
it to a farm owned by the president's father. The transports were not properly documented and
the participants were not licensed to accept, treat, store, or dispose of hazardous wastes.




                          Guilty pleas entered in false-license case

                          Guilty pleas to violations of federal motor-carrier safety regulations
                          were entered by Angus Daniel Senn, Senn Freight Lines, Inc., and
                          Russell Elton Shields. Senn is president of the firm and Shields drove a
                          truck for the company. The corporation was accused of supplying a
                          false-identity commercial driver's license to a driver whose license had
                          been revoked. The corporation and Shields pleaded guilty in U.S.
                          District Court in Greenwood, SC to conspiracy to falsify records
                          required by federal motor-carrier safety regulations. Daniel Senn plead-
                          ed guilty to one count of making false statements to the Office of Motor
                          Carriers by maintaining false job-application files for a driver the com-
                          pany did not employ.



       Californian sentenced in welding fatality

       A sentence of 6 months’ home detention and a fine of $3,000 were handed to a
       man who ordered a welder to attempt repairs on a cargo tanker at an unauthorized
       facility. The welder was killed in an explosion. In addition to the fine and con-
       finement, George Granados was placed on 3 years' probation. He had pleaded
       guilty to conspiracy March 3, following an investigation that revealed neither the
       welder nor the firm where the death occurred, Atlas Bulk, Inc. of Montebello, CA,
       were certified to do such welding work.




                                             22
                                                         December 1999

    Puerto Rico contractor sentenced in highway fraud

    Redondo Construction Co. and its owner and president Jorge Redondo were sentenced in a
    highway construction fraud case. The firm was fined $250,000 and ordered to pay $750,000
    in restitution. Redondo was fined $250,000 and ordered to serve 6 months' home confine-
    ment and another 6 months in a halfway house. Redondo and his firm pleaded guilty to sub-
    mitting false reports claiming that excavation work on the Jesus T. Pineiro Expressway had
    been completed, when it had not been. The company is barred from bidding on federal high-
    way projects for a year.




FAA: improve methods, upgrade data
needed to calculate aircraft overflight costs

In our report (FE-2000-024), we found improvements were needed in the FAA cost-accounting
system and procedures used to estimate costs of providing air traffic control for “overflights.”
Overflights are aircraft that fly in U.S.-controlled airspace, but do not take off from, or land in, the
United States. FAA is developing a cost-accounting system. The agency determined costs relat-
ed to overflights were about $32 million for Fiscal Year (FY) 1998, or about 1.3 percent of the $2.5
billion spent by the en-route and oceanic control centers that handle such air traffic. FAA estimat-
ed about 242,000 overflights occurred within U.S.-controlled airspace for FY 1998. Before FAA
establishes overflight fees, it should develop costs using the more current and accurate FY 1999
cost and flight data, and improve its methods for collecting these data.




    Former government manager pleads guilty
    to contracting conflict-of-interest

    H. David Reed of Carlisle, MA, a former employee of the Research and Special Programs
    Administration, pleaded guilty in U.S. District Court in Boston to a conflict-of-interest
    charge. While chief of the Advanced Development Concepts Division at the Volpe National
    Transportation Systems Center, Reed and others organized a privately held technology com-
    pany. Reed tried to develop a private business relationship with a contractor working for
    the Volpe center, unlawfully participating personally, as a government officer, in the con-
    tract. He was sentenced to 2 years’ probation and a $1,000 fine. As a condition of his sen-
    tence, Reed was required to retire from his position at Volpe.


                                                  23
                                                  December 1999


Transportation agency returns $1.7 million to state DOT

A transit agency in Vancouver, WA returned $1.74 million to the Washington State
Department of Transportation after an OIG investigation showed the funds were used in a
prohibited fashion. CTRAN (Clark County Public Benefit Transportation Area) returned
the funds after a probe showed CTRAN made right-of-way acquisitions based on the value
the properties would have following future improvements by the owners. Federal regula-
tions require that the acquisition cost be based on the current value of the property. The
improvements cited by the property owners had not been made when CTRAN acquired the
property.




                                           24
25
Three sentenced in kickback scheme involving Navy subcontracts

Joseph Wing, a former Maritime Administration employee, was sentenced on tax charges after receiv-
ing approximately $60,000 to recommend a firm for a subcontract award. Wing was fined $2,000 by
a U.S. District Court in Boston and placed on 2 years' probation. He pleaded guilty to filing a false
income tax return. Prosecutors alleged that Wing accepted $60,000 from Boston Ship Repair to rec-
ommend that firm to an executive of Bay Ship Management Co., which was awarding Navy subcon-
tracts. Wing, who failed to report the money as income, also must pay back taxes and penalties expect-
ed to total more than $40,000. In a related case, two New York principals of Boston Ship Repair—
Stephen DiLeo and Harry Nicholson—each were sentenced to a year in jail and fined $30,000 for pay-
ing kickbacks to a Bay Ship Management official.




        Airport worker pleads guilty in security breach

        Ricky B. Garner, an employee of a commercial airline, pleaded guilty to security vio-
        lations in U.S. District Court in Dallas. Garner admitted he fraudulently used his air-
        port security badge to enter a secure area of the Dallas Fort-Worth International
        Airport without being screened by security, to illegally transport 10 kilograms of
        cocaine onboard an American Airlines flight. According to the terms of the plea
        agreement—and subject to the concurrence of the sentencing judge—Garner will be
        sentenced to 5 years in prison followed by 3 years' supervised release.




Trucking company, three owners sentenced in phony logs case

A Grand Rapids, MI-based trucking firm and its owners were sentenced for violating federal trucking
regulations and misleading federal safety inspectors. W.B. Produce Haulers Inc., and owners Gary
Berenbrock, Aletha Curtis and William Berenbrock, Jr. were charged with conspiracy to make false
statements to the Department of Transportation. They oversaw violations of federal trucking regula-
tions by using "ghost" drivers and hid records from Federal Motor Carrier Safety Administration
inspectors. The corporation was fined $28,400 and placed on a year's probation; it must reimburse the
government $42,000. William Berenbrock, Jr. and Aletha Curtis each face 4 months' electronic mon-
itoring, a fine of $1,050, 100 hours of community service and a year of probation. Gary Berenbrock
must pay a $2,100 fine, perform 100 hours of community service and serve a year of probation.




                                                 26
                                                              January 2000

Three sentenced for illegally shipping hazardous materials

Three men were sentenced in U.S. District Court in Tallahassee, FL for conspiracy to deliver haz-
ardous materials to an air carrier. Phillip Hinton, Jeffrey Sherman, and Adam Worobec were
involved in a scheme that offered kits for sale over the Internet which contained chemicals used to
manufacture gamma hydroxybutyrate or GHB, commonly known as the "date-rape drug." The
defendants shipped the kits via air carrier without declaring that the packages contained dangerous
goods. Sherman was handed a year in jail, a fine of $1,100 and 3 years' probation. Hinton and
Worobec each were fined $1,100 and sentenced to 3 months' home detention and 3 years' probation.
All three men also were sentenced on state charges of possession with intent to distribute GHB.
Hinton got another 3 months in jail and a fine of $1,333; Worobec was ordered jailed another 9
months. Sherman was placed on probation in the state case.


     Flight instructor pleads guilty, student pilot sentenced
     for log falsification

     A U.S. District Court judge in Fort Worth sentenced student pilot Yasir Naser
     Balbaid for falsifying his pilot's logbook. Balbaid was fined $3,600, required to per-
     form 200 hours of community service and placed on probation for 3 years. Balbaid
     admitted to the falsification, indicating he had flown 250 hours as required to receive
     a multi-engine commercial pilot's certificate, when he had only put in about half that
     time. Englebert D'Souza, Balbaid's flight instructor, pleaded guilty to aiding in the
     falsification of Balbaid's pilot logbook. The FAA suspended D'Souza's pilot's licens-
     es for a year.


Excavating company sentenced in oil-spill coverup

A federal judge in Minneapolis fined Plummer Excavating, Inc. $75,000 and
sentenced it to serve 3 years' probation. Last April, the company was
charged with violation of the Clean Water Act following the accidental rup-
ture of a crude oil pipeline by a company employee, who was then ordered
by a higher-up to cover up the accident. The pipe break caused 218,000 gal-
lons of oil to leak into the Clearwater River and forced the evacuation of the
town of Plummer, under threat from the oil leak, noxious fumes and a sub-
sequent fire. Approximately $3 million has been spent to clean up the spill's
environmental damage.




                                                27
                                                                January 2000

                                Towboat captains fined for polluting Ohio River

                                Two men who captained towboats for M/G Transport Services Inc.
                                were sentenced for dumping oil waste and bilge slops into the Ohio
                                River, polluting it. A U. S. District Court judge in Cincinnati sen-
                                tenced Robert Montgomery and Fred Moorehead to 120 days' home
                                confinement and 6 years' probation. Moorehead also was fined
                                $4,000, and Montgomery $2,000, for violating the Clean Water Act.
                                A federal judge previously fined M/G Transport Services and its
                                president, Harschel Thomassee, $155,000 and placed the corporation
                                on 2 years' probation.



 Two sentenced in fraud involving $1.8 million contract

 Two officers of a New Jersey construction firm pleaded guilty and were sentenced to home con-
 finement, community service and fines for making false claims to land a Coast Guard construc-
 tion contract. Gothrie Short Jr., president of Tri-Gems Builders, Inc., and Jason D. Griffin, anoth-
 er officer of the firm, were accused of misrepresenting their profit and claiming their employees
 would perform sufficient work as required by the Minority Enterprise Development Program in
 order to be involved in the $1.8 million renovation and expansion of a Coast Guard child-care
 center in Cape May, NJ. Short and Griffin both were sentenced to 6 months' home confinement,
 3 years' probation, 200 hours of community service, and fines of $10,000 each. Short also paid
 $210,000 in restitution to the Coast Guard, and Griffin paid $105,000.




Former MARAD employee sentenced for accepting gratuities

Former Maritime Administration employee Warren Hilton was sentenced in U.S. District Court in
Beaumont, TX for accepting gratuities. Hilton, formerly a marine surveyor at the Beaumont Reserve
Fleet office, will be jailed 4 months, serve another 4 months' home detention, and pay $7,460 in resti-
tution for accepting gratuities from a government contractor. He also will be placed on a year of
supervised release. In July, Hilton pleaded guilty, admitting he received a color television, a video-
cassette recorder, and other items from CBH Services, Inc., a MARAD subcontractor. Costs of these
gratuities were concealed in invoices submitted to MARAD to cover costs of repairing government
vessels.




                                                 28
29
Boston Central Artery cost now $13.1 billion;
greater due diligence needed in management

OIG is conducting ongoing oversight of the Boston Central Artery project, which will place sev-
eral miles of elevated highway below ground level. FHWA’s executive director and the Central
Artery project manager took exception to the finding in our latest report (TR-2000-050) that costs
could rise if construction cost growth trends are not controlled. However, February 1 the
Massachusetts Turnpike Authority announced a $1.4 billion cost increase, bringing total project
costs to $13.1 billion. These extra costs were not identified in the project’s finance plan or in
response to our latest audit, showing a lack of management due diligence. FHWA should require
project managers to identify funds or cuts to meet shortfalls, and FHWA needs to ensure more
complete financial reporting on the project. February 17, the Secretary of Transportation accept-
ed an FHWA plan that will implement all our latest report recommendations and spur a task-force
review of FHWA’s project oversight.


 Federal Highway Administration official, wife guilty in bribery case

 Federal Highway Administration engineer James Clark pleaded guilty to bribery and wire
 fraud in U.S. District Court in Alexandria, VA. His wife, Brenda Clark, pleaded guilty to a
 kickback charge. James Clark had authority over FHWA contractors who did transportation
 research and engineering under multi-million dollar government contracts. In return for
 awarding contracts, the Clarks solicited and received approximately $150,000 in personal
 loans and consulting contracts, using a series of pass-through companies and a business name
 to conceal their activity. James Clark faces up to 20 years’ imprisonment and a fine of up to
 $500,000. His wife faces up to 5 years in prison and a fine of up to $250,000. OIG and the
 FBI investigated.


Fiscal Year 1999 financial statements for FAA achieve unqualified status

In our audit (report FE-2000-060) of the Federal Aviation Administration’s Fiscal Year 1999
financial statements, we delivered an unqualified (“clean”) audit opinion despite the identifica-
tion of five areas involving weaknesses in internal controls and compliance with laws and regu-
lations. Overall, FAA’s balance sheet, statement of net cost, statement of changes in net position,
statement of budgetary resources, and statement of financing for the covered period were fairly
presented in all material respects and were in conformance with generally accepted accounting
principles. During FY 1999, FAA overcame major problems with its financial records, allowing
it to provide sufficient evidence supporting all material lines on the FY 1999 financial statements.
However, FAA needs to make financial management system improvements to avoid the need for
the extraordinary, expensive, and labor-intensive documentation that made this unqualified opin-
ion possible.

                                             30
                                                                 February 2000

       FY 1999 financial statements for Highway Trust Fund
       achieve clean audit status

       Our report (FE-2000-056) delivered an unqualified (“clean”) audit opinion on the Fiscal Year
       1999 financial statements of the Department of Transportation’s Highway Trust Fund. We found
       that the balance sheet, statement of net cost, statement of changes in net position, statement of
       budgetary resources, and statement of financing were fairly presented in all material respects and
       conformed with generally accepted accounting principles. During FY 1999, the Highway Trust
       Fund agencies overcame major problems with the statement of budgetary resources and statement
       of financing to achieve this “clean” audit opinion. The agencies provided sufficient evidence to
       support all material line-items. We identified four areas involving weaknesses in internal controls
       and compliance with laws and regulations. While these issues are important, they do not affect
       our overall opinion.


Modernizing the Federal Aviation Administration: OIG testimony

The Inspector General testified before the U.S. Senate Committee on the Budget and the
Senate's Subcommittee on Transportation and Related Agencies, Committee on
Appropriations. The topics were restructuring FAA, progress with acquisition and person-
nel reform, and FAA finances. FAA's air traffic control modernization efforts and airport
capacity have not kept pace with demand for air travel. There are proposals to restructure
FAA air-traffic functions to perform more like a business, and to increase funding for mod-
ernization and airport- improvement programs. If Congress decides to move toward com-
mercialization, it must be done gradually and in a limited environment, such as oceanic air
traffic control. Regarding cost-control, FAA should make contractors more accountable
and address human factors earlier in the development and acquisition process. We urged
FAA to implement a cost-accounting system and develop a strategic business plan.


       Audit spurs recovery of $1.6 million in FHWA grant overpayments

       OIG (report FE-2000-053) audited Federal Highway Administration payments to the states of
       Virginia, California, New York, Pennsylvania, and Georgia during FY 1999. These states account
       for about 20 percent of highway maintenance and construction costs. We found such costs were
       valid, and supported by vendor invoices or appropriate reports in 109 of the 110 transactions
       reviewed. The final transaction revealed a duplicate payment to the State of Georgia. Closer
       review in cooperation with state officials revealed 42 duplicate payments, totaling $1.6 million,
       between July 12 and November 23, 1999; these were found to have resulted from installation of
       a new computer system in response to Year-2000 concerns and from weaknesses in controls over
       the FHWA billing process. The duplicate funds were recovered, and officials of FHWA and the
       state of Georgia are taking corrective actions to prevent future duplicate payments.

                                                        31
Review of FAAs HOST and Oceanic computer-system replacement

Our review (AV-2000-042) looked at FAA’s work to date on replacement of its HOST and Oceanic
air traffic control computers. FAA completed Phase 1 of the replacement program on schedule, meet-
ing an extremely tight timeframe. Controllers at 20 domestic en-route centers and 3 oceanic and off-
shore sites have new computers. While there have been 28 HOST outages since the new computers
were operational, none were caused by new computer hardware or software. FAA still needs to com-
plete the four-phase replacement program. Phase 2 upgrades software to improve the efficiency of
new processors, and software development is complete for en route, and nearly complete for Oceanic.
Phases 3 and 4 will replace such aging peripheral equipment as printers, storage devices, and tape
drives, which can cause unscheduled system outages if they fail. FAA must set priorities and define
funding needs for Phases 3 and 4.



     Truck driver incarcerated in manslaughter case

     A state court in Portland, ME sentenced former truck driver Michael J. Rogers to 5 years’
     imprisonment and a fine of $3,000, plus 4 years' probation, in connection with a fatal March
     1999 accident. Rogers, who admitted he was driving fatigued on the Maine Turnpike when
     the accident occurred, must also surrender his commercial driver's license and perform 200
     hours of community service; the court suspended 4 years of his sentence and will give him
     credit for time served on the remainder. He pleaded guilty to manslaughter, reckless conduct
     with a dangerous weapon (a tractor-trailer), maintaining a false driver's log and failure to
     maintain records.




  Coast Guard actuarial model approved

  The report (FE-2000-041) reviews the U.S. Coast Guard actuarial model for estimating liabilities
  for retired pay and medical benefits. The study was conducted by the Hay Group, under contract
  with the Office of Inspector General, as part of our audit of the Department of Transportation
  Fiscal Year (FY) 1999 consolidated financial statements. The study was to determine whether
  the methodology used by the Coast Guard contractor to calculate liabilities and annual actuarial
  activity of the Coast Guard military retirement system was reasonable and reliable as of
  September 30, 1998. The Hay Group concluded the methodology was reasonable and reliable.




                                             32
                                                             February 2000

OIG testimony: Amtrak financial viability and modernization

In testimony before the U.S. Senate Committee on Commerce, Science and Transportation’s
Subcommittee on Surface Transportation and Merchant Marine (report CE-2000-055), the Inspector
General discussed Amtrak’s Congressional mandate to end its need for federal operating support after
FY 2002. Self-sufficiency still appeared possible, although the delays in Amtrak’s Acela Express serv-
ice posed additional obstacles. Amtrak’s success will hinge on its aggressive pursuit of projects such as
the service improvements identified in its Market-Based Network Analysis, and implementing fast, reli-
able high-speed rail service between Boston and Washington. Though Amtrak has made progress
toward the goal, its $916 million in audited operating losses in 1999 were its largest ever. Although sys-
temwide passenger revenue grew by nearly 6 percent in 1999, it was about 3 percent short of Amtrak’s
goal. A multi-billion-dollar backlog of capital investments must be addressed to prevent deterioration
of service in the revenue-producing Northeast Corridor, and $654 million in life-safety issues in Penn
Station and the East River and Hudson River tunnels must be addressed.




                                              33
      DOT wins "clean" designation
      on Fiscal Year 1999 financial statements

      Due to extraordinary efforts in the past 2 years, DOT was able to provide evidence
      supporting all material line-items on its FY 1999 Consolidated Financial
      Statements (report FE-2000-062), thereby earning DOT its first "clean" audit
      opinion. The Department's chief financial officers and the many DOT employees
      who worked on this important effort are to be commended. DOT still needs a
      state-of-the-art Departmental financial management and accounting system and an
      integrated property-management system for FAA.



Budgetary game plan needed for the Coast Guards
Deepwater modernization project

We concluded (report MA-2000-065) that the Deepwater Project planning process for
replacement of Coast Guard ships and other assets is sound and that the Coast Guard
took actions to strengthen the process in response to recommendations by the Office of
Management and Budget and the General Accounting Office. However, significant data
gaps need to be filled before the planning process ends. The question is not whether the
Deepwater assets have to be replaced or modernized but how, when, and at what cost.
We recommended that the Coast Guard develop a strategy for justifying the expected
$350 million FY 2002 budget request, because the planning process will not be complete
in time to prepare the justification. In order to ensure continuity in project management,
we recommended that the Coast Guard consider the need for civilian staffing at the sen-
ior-management level.




  FAA contractor sentenced for false claims conspiracy

  A Florida construction-company owner was ordered jailed for a year and fined $30,000
  for conspiracy to pad invoices on a government renovation contract. A U.S. District Court
  judge in Miami also ordered 3 years’ supervised release for Eric Pitchman, owner and
  president of Max South Construction. Pitchman’s company was under contract with the
  FAA to renovate an air-traffic-control center in Miami.




                                             34
                                                                         March 2000

  Maritime ship-scrapping requirements need revision

  Our report (MA-2000-067) analyzes the challenge faced by the Department and the Congress in
  determining how to dispose of MARAD's fleet of environmentally dangerous vessels in a timely
  manner. MARAD will not achieve the legislative mandate to dispose of its obsolete vessels by 2001,
  nor will the disposals yield financial benefits to the United States. MARAD will need relief from
  these requirements. Selling obsolete vessels for scrapping is not likely to work in today's marketplace.
  Overseas sales have halted, there is limited domestic scrapping capacity, and the Navy is paying to
  have its combat ships scrapped. We concluded that MARAD will need authorization and funding to
  pay for the disposal of vessels if it is to significantly reduce the number of obsolete vessels in the
  fleet.


Los Angeles Red Line shows progress,
but MTA must show funding ability

In our latest review of the Los Angeles Metro Rail Red Line project (RT-2000-073)
we noted that the full cost of the project now is estimated to be $4.489 billion, or
$482 million higher than the original estimate. The Downtown Los Angeles and
Wilshire Center segments are open; the North Hollywood segment is slated to open
in June, 6 months early. However, the Metropolitan Transit Authority faces demands
on its resources that could affect its ability to operate the Red Line, including a bus
riders’ lawsuit for more service, $99 million in federal funds committed but not yet
appropriated, and the potential need to return $76 million in federal funds earlier
earmarked for two suspended segments. The authority should look for ways to
reduce costs and delay expansion decisions until the final outcome of the lawsuit is
known.

    Inspector General testifies on motor-carrier safety

    The Inspector General testified before the House Subcommittee on Transportation of the
    Committee on Appropriations about the new Federal Motor Carrier Safety Administration's
    progress in improving motor-carrier safety. Since we last testified on that topic, the Department has
    placed emphasis on enforcement efforts. Compliance reviews have increased, most carriers identi-
    fied as high-risk have been reviewed, and civil penalties have increased. However, the leadership
    needed to give direction to the new FMCSA is not in place. Further, inspection resources at south-
    ern border crossings are inadequate; the TEA-21 mandatory shutdown provision for unfit carriers
    is not being used effectively; and rulemakings take too long. In addition, federal oversight of the
    commercial drivers' license program has not yet dealt with significant problems. Some states still
    need to pass legislation implementing federal requirements and end programs that conceal viola-
    tions and provide for special licenses.

                                                    35
                             Enhance RSPA's pipeline-safety and inspection pro-
                             grams

                             At the request of Sen. Patty Murray of Washington, OIG reviewed RSPA’s
                             Pipeline Safety Program. The report (RT-2000-069) notes actions taken by
                             the Office of Pipeline Safety in response to Congressional mandates on
                             pipeline safety. It also addresses current research and development on inter-
                             nal inspection devices, the need for sufficient accident data, and responses
                             to NTSB recommendations. The audit recommends that RSPA complete
                             actions required by Congress, expand the focus of pipeline research and
                             development, train Office of Pipeline Safety inspectors on pipeline-inspec-
                             tion technologies, revise the collection of accident data and related enforce-
                             ment to ensure accurate reports from operators, and set timetables for carry-
                             ing out NTSB safety recommendations.

    DOT needs to provide effective, independent oversight
    of major infrastructure projects

    The Deputy Inspector General testified (report RT-2000-063) before the House Committee
    on Appropriations' Subcommittee on Transportation about DOT oversight of major trans-
    portation construction projects. The testimony focused on three points. We addressed the
    Federal Transit Administration’s use of full-funding grant agreements, which have effective-
    ly limited the federal government's financial risks and promoted accountability for transit
    projects; the need for better guidance on finance plans, some of which currently offer little
    of use to grantors or oversight agencies; and the need for DOT to provide effective, inde-
    pendent oversight of major projects.

OIG testifies on management oversight issues

The Inspector General testified on major management issues facing DOT before the Subcommittee
on Transportation of the Senate Appropriations Committee (report TW-2000-064). These issues
include aviation safety, surface transportation safety, air traffic control modernization, FAA financ-
ing and reauthorization, surface, marine, and airport infrastructure, transportation security, comput-
er security, financial accounting and the Chief Financial Officers Act, Amtrak financial viability and
modernization, the Coast Guard's Deepwater Capability Replacement Project, the Maritime
Administration’s ship-disposal program, and implementation of the Government Performance and
Results Act. The Deepwater project and the ship-scrapping program are new items since last year;
our 1998 highlighting of Year-2000 computer issues was removed because the Department resolved
those issues. We also outlined our ongoing work, at the request of Congress, analyzing airline flight
delays, airline pricing, and customer service.


                                              36
                                                                    March 2000

Airline, freight forwarder plead guilty
to obstruction of post-crash probe

Cargo air-carrier Fine Air Services Inc. and freight forwarder Aeromar Airlines pleaded guilty in
U.S. District Court in Miami to obstruction of justice and making false statements in response to
a probe following a Fine Air cargo-jet crash in August 1997. Employees of the firms discarded
and altered documents, and destroyed a videotape showing placement of cargo pallets on the
crashed aircraft. Under the plea agreement, Fine Air will pay a criminal fine of $3.5 million and
Aeromar will pay a fine of $1.5 million; both firms must serve 4-year supervised probations and
institute air-safety programs subject to review by the court and probation office.


             Quality, inconsistency of DOT data leads to improvements

             OIG was asked to testify before Congress (report FE-2000-071) on the quality of program
             data used by the U.S. Department of Transportation. Decisionmaking relies on access to
             good data, and in DOT good data are key to ensuring the safety of the traveling public.
             We found that the quality of DOT’s extensive data varies considerably, and in some cases
             reflects lack of completeness, accuracy or timeliness. We also found DOT’s ability to col-
             lect good data is hindered by inconsistent definitions, poor input into collection systems,
             and extensive reliance on such third parties as states, transit authorities, airports, and pri-
             vate firms that operate airlines, railroads and pipelines. In recognition of the importance
             of reliable data, the Department has improved its financial data, and the Deputy Secretary
             has established a committee on transportation statistics. Its goal is improvement of DOT
             data quality.


Airport security contractor must pay $110,000
for falsifying employee background checks

Aviation Safeguards of Florida, Inc. was ordered to pay $110,000 in fines and restitution, and
placed on 2 years’ probation, after pleading guilty in Miami Federal court to making false state-
ments to FAA. The firm falsely certified on at least 70 occasions that criminal background checks
had been made on employees seeking access to secure areas at Miami International Airport. As
a result, some employees were hired who might have presented a security risk to the traveling
public. Aviation Safeguards’ former general manager separately pleaded guilty to 22 felony
counts of making false statements to FAA; he was sentenced last April to more than 5 years'
imprisonment for those crimes and an unrelated sex case.


                                                 37
FAA's FY 2001 Request for Research, Engineering, and
Development

The Assistant Inspector General for Auditing testified before the House Subcommittee on
Technology, Committee on Science, on FAA's research, engineering, and development pro-
gram (report AV-2000-054). The program plays an important role in developing new tech-
nologies for aviation safety, air traffic control capacity enhancement, and security.
Discussed were changes in the nature of FAA's research and development efforts and how
they are financed; government-wide cooperation and coordination on aviation research;
FAA's aircraft-safety research efforts; and the continued need for human-factors work in
developing new safety, capacity, and security technologies.




       Illinois commercial driver-licensing prosecutions continue

       As the ongoing commercial driver-licensing corruption probe dubbed “Operation Safe Road”
       continued in Illinois, 22 defendants saw action during the 6 months covered by this report. A
       total of 30 people have been charged in connection with the conspiracy, in which more than
       250 unqualified applicants for truck and bus licenses were waved through Illinois Secretary
       of State facilities without required testing, in exchange for hundreds of thousands of dollars
       in bribes. Two of those charged remain under indictment only; eight more entered guilty pleas
       to various charges. Twelve were handed sentences ranging from 4 months’ home confinement
       to a year and a half in prison, plus community service. One driver licensed under the scheme
       was involved in a fiery accident near Milwaukee that killed six children. It was determined
       that much of the bribe money was directed to political fundraising.




State transportation department
pays $300,000 fine in fraud case

The Washington State Department of Transportation paid $300,000 to the fed-
eral government in a settlement agreement filed in U.S. District Court in
Seattle, for obtaining federal excess property. The state agency wrongfully
obtained approximately $5 million in property by using the Federal Highway
Administration’s property screening authority. The investigation revealed that
employees of the Washignton DOT converted a substantial amount of the prop-
erty for personal use.



                                               38
                                                                    March 2000
Coast Guard needs justification strategy for asset-replacement plan

In testimony before the U.S. House Committee on Appropriations’ Subcommittee on
Transportation and Related Agencies and the U.S. House Transportation and Infrastructure
Committee’s Subcommittee on Coast Guard and Maritime Transportation, we concluded (reports
MA-2000-057 and MA-2000-066), that the Deepwater Project planning process for replacement
of Coast Guard ships and other assets is appropriate and that the Coast Guard improved the
process, reacting to recommendations by the Office of Management and Budget and the General
Accounting Office. However, significant data gaps remain and should be filled before the planning
process ends. The assets will need replacement, but questions remain about how, when, and at
what cost. We recommended that the Coast Guard develop a strategy for justifying the expected
$350 million FY 2002 budget request, because the planning process will not be complete in time
to prepare the justification. We also recommended that the Coast Guard consider the need for civil-
ian staffing at the senior-management level.

     OIG testifies on Amtrak

     In testimony before the U.S. House Appropriations Committee’s Subcommittee on Transportation
     and Related Agencies (CE-2000-068), the Inspector General presented OIG’s views on Amtrak’s
     Fiscal Year 1999 and first-quarter 2000 financial results. Five months into FY 2000, it appeared
     possible that Amtrak still could achieve operating self-sufficiency, although the delays in Acela
     Express service posed additional obstacles. Amtrak’s audited 1999 operating loss of $916 mil-
     lion, including depreciation, was $56 million more than its 1998 loss and the largest in Amtrak
     history. On the positive side, Amtrak’s systemwide passenger revenue grew by almost 6 percent
     in 1999. That was short of Amtrak’s goals by $31 million, or about 3 percent. Separately, $654
     million in life-safety needs in New York’s Penn Station and Hudson/East River tunnels must be
     addressed.

Inspector General testifies on key safety, modernization
and financial issues facing FAA

In testimony (report AV-2000-072) before the U.S. House Appropriations Committee’s
Subcommittee on Transportation and Related Agencies, the Inspector General discussed FAA
issues including its FY 2001 budget request—$11.2 billion, an increase of 12 percent over the pre-
vious year—along with safety and modernization. FAA must contain its operations costs because
recently passed legislation requires funding of airport improvements and facilities and equipment
before salaries and operations costs are met. It also needs to underscore its commitment to safety
by reducing near-collisions on runways (runway incursions) and operational errors by air traffic
controllers, and by implementing guidelines for U.S.-based air carriers to follow in assessing the
safety of their foreign code-share partners. Two key air traffic control modernization programs—
the Wide Area Augmention System and the Standard Terminal Automation Replacement System—
continue to have schedule delays and cost increases, adding to their estimated $4 billion price tag.

                                              39
                                                                   March 2000

OIG testifies on potential aviation security improvements

In testimony before the U.S. House Transportation and Infrastructure Committee’s
Subcommittee on Aviation (report AV-2000-070), the Assistant Inspector General for Auditing
discussed technology improving screener performance, employee background checks, access
to secure airport areas, and strategic security plans. FAA has increased its use of a computer
program used to keep baggage-screeners focused on threats, but needs to increase screener
training and expand the use of some baggage-screening equipment. Background checks on
prospective employees can, and should, be more extensive, and employees need to be held
responsible for their roles in keeping limited-access areas secure. FAA needs to create an inte-
grated strategic security plan to guide its work.




   Major sentences in drug and stolen aircraft parts case

   Two Florida residents were sentenced on conspiracy and drug-related charges by a U.S.
   District Court judge in Miami. Joan Pereira must serve a 7-year, 3-month term and
   Orlando Hernandez must serve 2 years and 4 months for conspiracy to transport stolen
   aircraft parts across state lines and possession, with intent to distribute, of cocaine, crack
   cocaine, and marijuana. Michael Malagon also pleaded guilty to the same charges.
   Hernandez and Pereira will serve 3 years’ supervised release after confinement.




                                            40
41
        Organization/Management

                        INSPECTOR GENERAL

                       DEPUTY INSPECTOR GENERAL


                                                                          LEGAL COUNSEL

ASSISTANT IG FOR              ASSISTANT IG FOR                          COMMUNICATIONS

 INVESTIGATIONS             AUDITING/EVALUATIONS                  INFORMATION/HUMAN RESOURCES

                                                                  FINANCIAL/ADMINISTRATIVE SVCS.




      DEPUTY          DEPUTY         DEPUTY          DEPUTY            DEPUTY               DEPUTY
      AIG FOR         AIG FOR        AIG FOR         AIG FOR          AIG FOR               AIG FOR
     INVESTIG-       AVIATION       HIGHWAYS      COMPETITION        FINANCE &             MARITIME
      ATIONS                           AND        RAIL, TRANSIT    INFORMATION            AND DEPART-
                                    HIGHWAY            AND         TECHNOLOGY             MENTAL PRO-
                                      SAFETY      SPECIAL PRO-                              GRAMS
                                                     GRAMS



   The Office of Inspector General for the Department of Transportation was created by
   Congress through the Inspector General Act of 1978 (Public Law 95-452). The Act sets
   several goals for OIG:

                    z	 To conduct or supervise objective audits and investigations of
                       DOT’s programs and operations;
                    z To promote economy, effectiveness and efficiency within DOT;
                    z To prevent and detect fraud, waste, and abuse in the Department’s
                       programs;
                    z	 To review existing and proposed laws or regulations affecting the
                       Department and make recommendations about them, and
                    z	 To keep the Secretary of Transportation and Congress fully
                       informed about problems in Departmental programs and operations.

   OIG is divided into two major units and five support units. The major units are the Office
   of Assistant Inspector General for Auditing/Evaluations and the Office of Assistant
   Inspector General for Investigations; each has headquarters staff and regional staff. The
   support units are the Office of Legal Counsel, the Communications Office, the Office of
   Information Resource Management, the Office of Human Resources, and the Office of
   Financial and Administrative Services.
                                           42
            Completed Audits October 1, 1999-March 31, 2000

                       (Dollars in Thousands)

                                                  Estimated Amounts*

Type of Review	                          No. of     No. of         Costs          Costs Un-           Funds to
                                         Reports    Recomm. Questioned            Supported           Better Use

Internal Audits:

       Program/Functional                   33          80     $           0      $        0          $ 137,600

       Chief Financial Officer


       Financial Statements:                  5           5    $           0      $        0          $ 622,000
       Total Internal Audits                38          85     $           0      $        0          $ 759,600


Grant Audits:
      Audits of Grantees under
       Single Audit Act                     37           74 $          339        $        0          $            0
      Other Grant Audits                     0            0 $            0        $        0          $            0
      Total Grant Audits                    37           74 $          339        $        0          $            0

Contract Audits:
      Contracts                              0            0    $         0        $        0          $       0
      Total Contract Audits                  0            0    $         0        $        0          $       0
      TOTALS                                75          159    $       339        $        0          $ 759,600

                   * The dollars shown are the amounts reported to management. The actual amounts may change
                   during final resolution.




           Department of Transportation programs and operations are primarily carried out
           by the Departments own personnel and recipients of federal grants. Audits by
           DOTs Office of Inspector General, as a result, fall into 3 categories: internal audits
           of Departmental programs and operations, audits of grant recipients, and reviews
           of work and spending by contractors. The table above shows OIGs results in the
           3 categories for the 6 months covered by this report.



                                                              43
        Management Decisions Regarding Audit Recommendations
                                                               (Dollars in Thousands)
                                        Number             Number of                                                                 Funds to be
                                          of               Recommen-              Questioned             Unsupported                 Put to Better
       Description                      Reports              dations                Costs                  Costs*                        Use

        Unresolved                           31                   105               $5,629                         0                   $ 680,202
       as of 10/1/99
       Audits with
     Findings During                         56                   159               $ 339                          0                   $ 759,600
     Current Period

Total to be Resolved                         87                   264               $5,968                         0                   $1,439,802


     Mgt. Decisions:
     A.Audits Prior                          23***                  68              $5,629                         0                    $678,500
         Period

    B.Audits Current
                                             31***                  85              $    64                         0                   $623,600
        Period

   Total Resolved
                                             54                   153               $5,693                          0                  $1,302,100
Reports/Recommen-
      dations

    Unresolved as of
                                             39                   111               $ 276                           0                   $137,702
      3/31/00**

 Aging of Unresolved
        Audits:
 Less than 6 mos. old                                               74              $ 276                          0                    $136,000
                                             29
    6 mos. - 1 year                           7                     27                  0                          0                    $           0
   1 year - 18 mos.                           3                     10                     0                       0                    $ 1,702
  18 mos. - 2 years                           0                      0                     0                       0                    $          0
   Over 2 years old                           0                          0          $      0                       0                    $           0

TOTALS                                       39                   111               $ 276                          0                    $137,702

*Unsupported costs included with the figure shown as questioned costs.               ***Includes some reports and recommendations where costs were both
                                                                                     allowed and disallowed

** Considered unresolved if management decisions have not been made on
all report recommendations.                                                  44
     Audit Reports with Recommendations That Questioned Costs

                                                    (Dollars in Thousands)

                                        Number of             Number of Rec- Questioned                        Unsupported*
                                        Reports               ommendations   Costs                              Costs

A.     For which no manage-
       ment decision had
       been made by start of
       the reporting period                  10                   14               $ 5,629                 $       0


B.     Which were issued
       during the period                     18                   26               $    339                $       0


   Totals (A+B)                              28                   40               $ 5,968                 $       0
C.    For which a manage-
      ment decision was
      made during the
      reporting period                       16                   23               $ 5,693                 $       0

       (i) dollar value of dis-
       allowed costs                         10**                 11***            $ 6,269****             $       0
       (ii) dollar value of
       costs not disallowed                  12**                 17***            $ 1,204                 $       0

D.     For which no manage-
       ment decision has been
       made by the end of the
       reporting period                     12                    17               $    276                $      0

 *Unsupported costs are also included in the figures shown as questioned costs. ** Includes reports in which costs were both
 allowed and disallowed. *** Includes recommendations in which costs were both allowed and disallowed. ****Management
 committed to an amount greater than that recommended.

The Inspector General Act requires explana-                            The Inspector General Act also requires this
tions of reasons for significant revisions to                          report to describe any significant manage-
management decisions made during the                                   ment decision with which the Office of
reporting period. OIG follows up on audits                             Inspector General disagrees. At the close of
reported in earlier semiannual reports.                                this reporting period, there were no signifi-
During this reporting period, there were no                            cant management decisions with which
significant revisions of Departmental man-                             OIG disagreed.
agement decisions reported to OIG.
                                                             45
        Audit Reports with Recommendations that Funds be Put

                            to Better Use

                                                 (Dollars in Thousands)


                                                       Number of                  Number of                  Dollar
                                                       Reports                    Recommend-                 Value
                                                                                  ations                 (in thousands)
A.     For which no management
       decision had been made by
       the commencement of the
       reporting period                                           3                     3                  $ 680,202


B.      Which were issued during the
        reporting period                                          4                     4                 $   759,600

        TOTALS (A+B)                                              7                      7                $ 1,439,802

C.      For which a management decision
        was made during the reporting
        period                                                    4                      4                $1,302,100


        (i)     dollar value of recommenda-
                tions that were agreed to by
                management:                                       4*                     4*               $1,302,100

        (ii)    dollar value of recommenda-
                tions that were not agreed to
                by management                                     0*                     0*               $        0

D.      For which no management decision
        had been made by the end of the
        reporting period                                          3                      3                $ 137,702
 *May include reports and recommendations in which some costs were allowed and others were disallowed.




                                                            46
                 Audit Reports Recommending Changes
                   for Safety, Economy or Efficiency

                                                      Number of      Number of
                                                       Reports    Recommendations
A.   For which no management decision had been made
     by the commencement of the reporting period         29             88



B.   Which were issued during the reporting period       52             129

     TOTALS: (A + B)                                     81             217


C.   For which a management decision was made
     during the reporting period                         45             126


D.   For which no management decision has been made
     by the end of the reporting period                  36             91




                                             47
                  Status of Unresolved Audit Recommendations

                               Over 6 Months Old


                  CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1998-MARCH 31, 1999

State Safety Oversight Program           TR-1999-071        03/12/99   Will resolve when FTA provides
 for Rail Systems                                                       target dates for implementation

Motor Carrier Program for Commercial     TR-1999-034        12/28/98   Unresolved issues under review
 Trucks at U.S. Borders                                                 by the Office of the Secretary

Deployment of EDS, FAA                   AV-1999-001        10/05/98   Working with FAA to resolve
                                                                        all open issues



                  CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1999-SEPTEMBER 30, 1999

Safety Issues Concerning Alliances and   AV-1999-138        9/29/99    Working with FAA to resolve
Code-Share Agreements                                                  all open issues

Independent Assessment of Amtrak         CE-1999-116        7/21/99    Working with Amtrak to resolve
                                                                       all open issues

Carson City, NV                          QC-1999-110        6/25/99    Will resolve during third quarter
                                                                       of FY 2000

Motor Carrier Safety Program             TR-1999-091        4/26/99    Working with FMCSA to resolve
                                                                       all open issues




                                                       48
                           Profile of Pending Investigations
       DOT Operating             Number of                           Types of Cases
       Administration              Cases     Contracts/   Aviation Truck/Bus   HazMat     Employ-   Other
                                              Grants       Safety    Safety                 ees


Federal Aviation                    189         20          68         0         19         30       52
Administration

Federal Highway                      96         44           0         0          0          7        45
Administration

Federal Motor Carrier                89           0          0        60         24          1         4
Safety Administration

U.S. Coast Guard                     40         12           0         0         13          9         6

Federal Transit Administration       23         19           0         0          0          0         4

Research and Special Programs        18           2          0         0         15          0         1
Administration

Office of the Secretary              11           3           0        0           0         4         4

Maritime Administration               8           3           0        0           0         0         5

National Highway Traffic             11           0           0        0           0         5         6
Safety Administration

Federal Railroad                      5           2           0        0           0         0          3
Administration

Saint Lawrence Seaway                 0           0           0        0              0      0          0
Development Corp.

Other agencies                        1           0           0        0              0      1          0
       TOTALS:                      491         105         68        60         71         57       130

      Percent of total:                        21%         14%       12%        14%        12%       26%

                                                 49
                  Investigations
                                                              OIG investigations in this
                 Judicial Actions
                                                              reporting period spurred
           October 1 1999-March 31, 2000                      $28,412,241 in recoveries
                 Indictments 140                              including fines, restitution,
                 Convictions 140                              civil judgments or settle-
             Years Sentenced 59                               ments, and federal and state
             Years Probation 223                              recoveries. Federal recover-
          Supervised Release 58                               ies go to the U.S. Treasury.
                        Fines $24,506,200                     State recoveries are retained
Restitutions/Civil Judgments $3,081,790                       by the states.
            Federal Recovery $31,992
              State Recovery $792,259

                     TOTAL $28,412,241


 The 6 months covered by this
                                                    Investigations
 report opened with a pending
                                                Administrative Actions
 caseload of 412. During the
 period, 131 cases were opened               October 1, 1999-March 31, 2000
 and 96 were closed, leaving a
 pending caseload of 491.
                                                       Employee Suspensions      1
                                             Employee Resignation/Retirement     4
                                                        Employee Terminated      4
                                                        Employee Reprimand       5
          During the period, 126                         Employee Counseled      8
          cases were accepted for                   Debarments/Suspensions       7
          prosecution, while 14                       Other Corrective Action   18
          were declined.       The                    Regulation/rule revised    1
          number of cases pend-
          ing before prosecutors as
                                                                      TOTAL 48
          of March 31, 2000 was
          87.




                                            50
       Application of Audit Resources
       by Operating Administration

        Office of the                                 Coast
                                         FTA                         FHWA
       Secretary 22%*                                 Guard
                                         8%                           12%
                                                       7%

                                                                                RSPA 3%
MARAD 4%
 FRA 4%




                                                                     FAA
                                                                     40%
 *A substantial portion of this percentage reflects
 OIGs work auditing the Departments Consolidated
 Financial Statements, which includes work at FAA,
 FHWA, the U.S. Coast Guard and other operating                                   Application of Investigative Resources
 administrations
                                                                                  by Operating Administration


                                                                       NHTSA 1.1%
                                                        FTA 4.7%       MARAD 3.3%      Other .23%
                                                       Coast Guard      FRA 1.5%                          FHWA
                                                          5.6%                                             22%
                                                       RSPA 3.2%

                                                        FMCSA
                                                         11.9%




                                                               Office of the
                                                                                                               FAA
                                                              Secretary 13.6%
                                                                                                              32.6%

        OIG Fiscal Year 2000 Budget


                                General Services           Other
       Travel$2,500            Administration Rent$2,800   $1,742
       TASC$1,875*



Benefits
$8,765	                                                                         Personnel Compensation
                                                                                $31,064




                                                                                 *The Transportation Administrative Service Center
                   (Dollars in Thousands)                                        provides reimbursable services to DOT operating
                                                                     51          administrations.
  The Wendell H. Ford Aviation Investment and Reform Act for the
                  21st Century: New Safeguards
         Against Counterfeit and Defective Aircraft Parts


       On April 7, 2000 the President signed H.R. 1000, the Wendell H. Ford
Aviation Investment and Reform Act for the 21st Century (AIR 21), into law (Public
Law 106-181). This important legislation, which reauthorizes the programs and
operations of the Federal Aviation Administration, also contains several provisions
recommended to Congress by the Inspector General and supported by the Secretary.

       To combat the danger posed by counterfeit or defective parts in U.S. civil,
public, and military aircraft and spacecraft, Congress incorporated the "Aircraft
Safety Act," which provides tough new civil and criminal penalties for trafficking in
suspect parts. It also will help prevent offenders from reentering the commercial
marketplace, and allows destruction of defective parts stockpiles. This measure will
give law-enforcement authorities a potent weapon to protect the safety of the trav-
eling public. This effort is the culmination of a 3-year interagency task force com-
prised of the FBI, the Department of Defense, the Customs Service, the National
Aeronautics and Space Administration, the FAA, and OIG.

        To maintain full confidence in the objectivity and integrity of the new FAA
Acquisition-Management System, Congress subjected FAA to the provisions of the
Procurement Integrity Act (41 U.S.C. 423). This law imposes restrictions on the con-
duct of business and information disclosed between federal employees and govern-
ment contractors. Specifically, it subjects employees and contractors to certain crim-
inal, civil, and administrative penalties if contractor bid, proposal, or source selec-
tion information is exchanged for anything of value or results in a competitive
advantage in the award of a federal contract.

       Finally, the new law also ensures that FAA employees have whistleblower
protection, through investigation and enforcement by the Office of Special Counsel,
to prevent retaliation for disclosure of information pertaining to waste, fraud, or
abuse. Additionally, the law provides FAA employees with recourse to the Merit
Systems Protection Board (MSPB) to contest certain adverse personnel actions.




                                        52
                          Office of Inspector General

                                 Audit Reports

                         October 1, 1999-March 31, 2000



                                  FEDERAL AVIATION ADMINISTRATION

INTERNAL AUDITS - 7 reports
                                                                                FOCUS OF REPORT/
REPORT         DATE       SUBJECT                                               RECOMMENDATIONS:

FE-2000-060    02/29/00Fiscal Year 1999 Financial Statements                    Improve financial data
FE-2000-058    02/28/00Property, Plant and Equipment                            $622,000,000 better use
AV-2000-042    02/04/00Status of HOST Replacement Program                       Modernize National Airspace
AV-2000-028    12/21/99Management of Software-Intensive Acquisitions for
                               Free Flight Phase 1                              Modernize National Airspace
FE-2000-024   12/17/99 Cost and Flight Data for Aircraft Overflights            Improve financial data
AV-2000-017   11/18/99 Airport Access Control                                   Improve Aviation Security
AV-2000-002   10/21/99 Follow-up Audit of Deployment of Explosives-Detection
                               Equipment                                        Improve Aviation Security

GRANT AUDIT - POST-AWARD - 9 reports

QC-2000-061   02/29/00    Wayne County, MI
                                     Improve grantee oversight
QC-2000-044   02/09/00    City of Syracuse, NY
                                 Improve grantee oversight
QC-2000-040   02/02/00    State of Hawaii DOT, Airports Division
               Improve grantee oversight
QC-2000-032   01/05/00    Department of Airports of the City of Los Angeles
    Improve grantee oversight
QC-2000-030   12/28/99    Port of Oakland, CA
                                  Improve grantee oversight
QC-2000-023   12/10/99    Republic of Palau National Government
                Improve grantee oversight
QC-2000-009   10/26/99    Williams Gateway Airport Authority
                   Improve grantee oversight
QC-2000-005   10/25/99    City of Bisbee, AZ
                                   Improve grantee oversight
QC-2000-003   10/20/99    Metropolitan Nashville Airport Authority
             $25,885 questioned

OTHER - 4 reports

AV-2000-072   03/21/00    FAA FY 2001 Budget Request
                           Testimony before Congress
AV-2000-070   03/21/00    FAA Aviation Security
                                Testimony before Congress
AV-2000-054   02/17/00    FAA FY 2000 Research, Engineering and Development 
   Testimony before Congress
AV-2000-039   02/03/00    FAA Structure and Reform
                             Testimony before Congress




                                                            53
                                       FEDERAL HIGHWAY ADMINISTRATION

INTERNAL AUDITS - 5 reports
                                                                                          FOCUS OF REPORT/
REPORT          DATE                SUBJECT                                               RECOMMENDATIONS:

FE-2000-056   02/28/00         FY 1999 Financial Statements, Highway Trust Fund           Improve financial data
FE-2000-053   02/14/00         Duplicate Payments                                         $1,600,000 recovery
TR-2000-050   02/10/00         Current Costs and Funding for the Central Artery Project   Ensure complete reporting
TR-2000-043   02/04/00         Baseline Reviews of Four Highway/Transit Megaprojects      Independent oversight
TR-2000-004   10/22/99         Review of the Alameda Corridor Project                     Specify funding risks

GRANT AUDIT - POST-AWARD - 15 reports



QC-2000-074   0 3 / 3 1 / 00   City of Miles City
                                        $10,886 questioned
QC-2000-051   02/14/00         State of Delaware
                                         Improve grantee oversight
QC-2000-048   02/09/00         State of Indiana
                                          Improve grantee oversight
QC-2000-047   02/09/00         Commonwealth of Kentucky
                                  $24,000 questioned
QC-2000-046   02/09/00         National Institute for Environmental Renewal
              Improve grantee oversight
QC-2000-036   01/27/00         New Mexico Highway and Transportation Department
          $20,247 questioned
QC-2000-034   01/10/00         State of Tennessee
                                        Improve grantee oversight
QC-2000-033   01/10/00         State of Minnesota
                                        Improve grantee oversight
QC-2000-031   12/28/99         State of Illinois, Department of Transportation
           Improve grantee oversight
QC-2000-027   12/21/99         City of New York
                                          Improve grantee oversight
QC-2000-022   12/10/99         Town of Hamden, Connecticut
                               Improve grantee oversight
QC-2000-019   11/09/99         Cass County
                                               $25,781 questioned
QC-2000-016   11/15/99         City of San Pablo
                                         $52,013 questioned
QC-2000-012   10/29/99         State of New Jersey
                                       Improve grantee oversight
QC-2000-006   10/25/99         ATA Foundation Affiliates
                                 $91,576 questioned




                         FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

INTERNAL AUDITS - 1 report
                                                                                          FOCUS OF REPORT/
REPORT          DATE                SUBJECT                                               RECOMMENDATIONS:

TR-2000-013   11/04/99         Mexico-Domiciled Motor Carriers                            Ensure statutory compliance




                                                                 54
                                FEDERAL RAILROAD ADMINISTRATION

INTERNAL AUDITS - 1 report
                                                                                FOCUS OF REPORT/
REPORT          DATE          SUBJECT                                           RECOMMENDATIONS:

RT-2000-020   12/14/99    Amtraks High-Speed Rail Electrification Project      Improve oversight

OTHER - 3 reports

CE-2000-068   03/21/00    Amtraks Financial Outlook                            Testimony before Congress
CE-2000-055   02/22/00    Amtraks Financial Outlook                            Testimony before Congress
CE-2000-010   03/21/00    Amtraks Financial Outlook                            Testimony before Congress




                                       MARITIME ADMINISTRATION

INTERNAL AUDITS - 1 report

MA-2000-067   03/10/00   Report on the Program for Scrapping Obsolete Vessels   Alternate approaches needed




                         OFFICE OF THE SECRETARY OF TRANSPORTATION

INTERNAL AUDITS - 4 reports

                                                                                FOCUS OF REPORT/
REPORT          DATE          SUBJECT                                           RECOMMENDATIONS:

FE-2000-062   03/08/00   Fiscal Year 1999 Consolidated Financial Statements     Improve financial data
CE-2000-026   12/22/99   Top 12 Management Issues                               Improve management oversight
MA-2000-015   11/05/99   Cost Allocations by the Transportation
                                    Administrative Service Center               Improve business practices
FE-2000-014   11/04/99   Year-2000 Readiness of the Financial Sector --
                                               Domestic, International          Enhance readiness

OTHER -- 3 reports

FE-2000-071   03/22/00   Program Data Quality                                   Testimony before Congress
TW-2000-064   03/07/00   Management Oversight Issues                            Testimony before Congress
FE-2000-059   02/28/00   Motor Carrier Safety                                   Testimony before Congress




                                                          55
                                       UNITED STATES COAST GUARD

INTERNAL AUDITS - 1 report

                                                                                         FOCUS OF REPORT/
REPORT         DATE           SUBJECT                                                    RECOMMENDATIONS:

FE-2000-041   02/03/00   Actuarial Estimates for Retired Pay and Medical Benefits        Financial oversight

OTHER - 3 reports
                                                                                         FOCUS OF REPORT/
REPORT         DATE           SUBJECT                                                    RECOMMENDATIONS:

MA-2000-066   03/15/00   Deepwater Capability Replacement Project                        Testimony before Congress
MA-2000-065   03/09/00   Deepwater Capability Replacement Project                        Testimony before Congress
MA-2000-057   03/01/00   Deepwater Capability Replacement Project                        Improve project management




                                  FEDERAL TRANSIT ADMINISTRATION
INTERNAL AUDITS - 2 reports
                                                                                         FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                                         RECOMMENDATIONS


RT-2000-073   13/24/00   Los Angeles Metro Rail Red Line                                 $76,000,000 better use
RT-2000-025   12/21/99   St. Clair Light Rail Extensions, St. Louis, MO                  $60,000,000 better use

GRANT AUDITS -- POST-AWARD - 12 reports
                                                                                         FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                                         RECOMMENDATIONS:

QC-2000-075   03/27/00   Central Florida Regional Transportation Authority
              Improve grantee oversight
QC-2000-052   02/14/00   Massachusetts Bay Transportation Authority
                     Improve grantee oversight
QC-2000-049   02/09/00   Transportation and Motor Buses for Public Use Authority
        Improve grantee oversight
QC-2000-045   02/09/00   City of Columbia
                                               Improve grantee oversight
QC-2000-037   02/01/00   Milford Transit District
                                       $77,062 questioned
QC-2000-035   01/02/00   Los Angeles County Metropolitan Transit Authority
              Improve grantee oversight
QC-2000-029   12/28/99   Kleberg County, TX
                                             $12,000 questioned
QC-2000-021   12/13/99   Metropolitan Transit Authority of Harris County, PA
            Improve grantee oversight
QC-2000-018   11/22/99   City of El Paso, TX                                         
   Improve grantee oversight
QC-2000-008   10/25/99   CTTransit
                                                      Improve grantee oversight
QC-2000-007   10/25/99   Suburban Mobility Authority for Regional Transportation 
       Improve grantee oversight
QC-2000-001   10/20/99   Greater Attleboro-Taunton Regional Transit Authority
           Improve grantee oversight

OTHER - 1 report

RT-2000-063   03/07/00   Transportation Investment Project Management/Oversight          Testimony before Congress




                                                           56
                     NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

INTERNAL AUDITS - 1 report

                                                                                          FOCUS OF REPORT/
REPORT         DATE           SUBJECT                                                     RECOMMENDATIONS:

QC-2000-011   10/29/99   City of Savannah, GA                                             Improve grantee oversight




                     RESEARCH AND SPECIAL PROGRAMS ADMINISTRATION

INTERNAL AUDITS -- 1 report
                                                                                          FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                                          RECOMMENDATIONS

RT-2000-069   03/13/00   Pipeline Safety Program                                          Improve OPS inspections




                      ST. LAWRENCE SEAWAY DEVELOPMENT CORPORATION

INTERNAL AUDITS -- 1 report
                                                                                          FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                                          RECOMMENDATIONS

QC-2000-038   02/01/00   Quality Control Review of FY 1999 Audited Financial Statements   Financial oversight




                                                        57
                                                             Contacts

Inspector General Kenneth M. Mead                 (202) 366-1959

Deputy Inspector General
     Raymond J. DeCarli                           (202) 366-1959

Assistant Inspector General for Auditing
       Alexis Stefani                             (202) 366-1992

Assistant Inspector General for Investigations
       Todd J. Zinser                             (202) 366-1967

Office of Legal Counsel
       Roger Williams                             (202) 366-8751
       Brian Dettelbach                           (202) 366-2083

Communications
    Jeff Nelligan                                 (202) 366-6312
    Jennifer Gavin, Semiannual Report             (202) 366-2009

Deputy Assistant Inspector Generals:
     Aviation, David Dobbs                        (202) 366-0500

      Finance/Information Technology,
            John L. Meche                         (202) 366-1496

      Highways and Highway Safety,
           Patricia Thompson                      (202) 366-0687

      Maritime/Departmental Programs
            Tom Howard                            (202) 366-5630

      Competition/Rail/Transit/Special Programs
           (acting) Mark Dayton                   (202) 366-2001
